UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Bureau of Consumer Protection
Division of Enforcement
Hampton Newsome
Direct Dial: (202) 326-2889
Fax: (202) 326-2558
Email: hnewsome@ftc.gov

January 3, 2018

Mr. Clark R. Silcox, General Counsel
National Electrical Manufacturers Association
1300 North 17th Street, Suite 900
Rosslyn, Virginia 22209
Dear Mr. Silcox:
This staff opinion letter responds to your recent request for guidance regarding mercury­
related light bulb disclosures under the FTC' s Energy Labeling Rule (16 C.F.R. Part 305). The
Rule(§ 305.15(b)) requires manufacturers to include an Environmental Protection Agency
(EPA) web address ("epa.gov/cfl") on lamps containing mercury as well as on the packaging for
those products. The EPA website provides consumers with information about the cleanup and
disposal of mercury-containing bulbs. When the Commission issued these disclosure
requirements in 2010 (75 Fed. Reg. 41696), the predominant mercury-containing bulbs on the
market were compact fluorescent lamps ("CFLs"). However, as your letter explains, other
mercury-containing bulbs have become available more recently, including induction lamps. As
your letter suggests, the letters "cfl" in the URL mandated by the current Rule may be confusing
to some consumers using these newer, non-CFL bulb types.
You are seeking guidance on whether, to minimize potential consumer confusion,
manufacturers of these bulbs may use an alternative URL ("epa.gov/bulb") to direct consumers
to the EPA inf01mation. Although the Rule specifies use of the "epa.gov/cfl" address, we would
not recommend enforcement action if manufacturers of non-CFL bulbs use your suggested
alternative address to connect consumers to the EPA website. The alternative URL would direct
consumers to the same EPA information about lamp cleanup and disposal while avoiding
potential confusion created by the " epa.gov/cfl" address. To that end, we have discussed this
issue with EPA staff, and they have created the alias web address "epa.gov/bulb" to take
consumers directly to "epa.gov/cfl." In the future , we will consider recommending Rule
amendments that include this address as an option for manufacturers.
The views expressed in this letter are those of FTC staff assigned to enforce the
Commission' s Energy Labeling Rule (16 C.F.R. Part 305). In accordance with Section l .3(c) of
the Commission' s Rules of Practice and Procedure, 16 C.F.R. § 1.3(c), this is a staff opinion only

Page 2
and has not been approved by the Commission or by any individual Commissioner. The advice
provided in this letter is not binding upon the Commission and is given without prejudice to the
right of the Commission later to rescind the advice and, when appropriate, to commence an
enforcement proceeding. In conformance with Section 1.4 of the Commission's Rules of
Practice, 16 C.F.R. § 1.4, this letter is being placed on the public record. If you have any further
questions, please contact me at (202) 326-2889.

~~~
Hampton Newsome
Attorney

